audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services	Grant to the Thornton, Colorado, Police Department
GR-80-99-023
September 23, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the grant awarded by the Office of Community Oriented Policing Services to the Thornton Police Department.  The purpose of the grant is to enhance community policing.  Thornton was awarded a total of $675,000 to hire 9 new police officers.

	We reviewed Thornton's compliance with seven essential grant conditions.  The grant conditions were generally met.  However, we found weaknesses in two areas as identified below.

Reimbursement requests were not based on actual program costs and actual program costs were not tracked.

	The Financial Status Reports were not always submitted timely and were not always accurate.  In addition, funds totaling $31,574 were drawn down during a period that Thornton did not have a current status report.

In addition, we noted that the original award amount was calculated incorrectly on the Financial Clearance Memorandum.  As a result, we recommend $1,216 be put to better use. 

	These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.
 report.  Our audit scope and methodology are described in Appendix I.